No. 19-123
IN THE

Supreme Court of the United States
SHARONELL FULTON, ET AL.,

Petitioners,

v.
CITY OF PHILADELPHIA, PENNSYLVANIA, ET AL.,
Respondents.
On Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit
BRIEF OF AMICI CURIAE INDIAN LAW
PROFESSORS IN SUPPORT OF RESPONDENTS
JEROME C. ROTH
Counsel of Record
APRIL YOUPEE-ROLL
MUNGER, TOLLES & OLSON LLP
560 Mission Street, 27th Floor
San Francisco, CA 94105
(415) 512-4010
Jerome.Roth@mto.com

Counsel for Amici Curiae American Indian Law Professors

i
TABLE OF CONTENTS
Page
INTEREST OF AMICI CURIAE .................................. 1
INTRODUCTION AND SUMMARY OF
ARGUMENT ...................................................... 2
ARGUMENT ................................................................. 3
I.

II.

THE HISTORY OF DISCRIMINATION,
INCLUDING RELIGIOUS
DISCRIMINATION, IN THE REMOVAL AND
PLACEMENT OF INDIAN CHILDREN
DEMONSTRATES THE NEED FOR NONDISCRIMINATION RULES TO PROTECT
CHILDREN AND FAMILIES. .......................... 3
A.

Early Federal Policies Targeted Indian
Families for Assimilation and Religious
Conversion through Education. ............. 4

B.

The Child Welfare System Allowed State
and Religious Entities to Continue to
Impose Discriminatory Standards on
Indian Families. ..................................... 8

DESPITE CONGRESSIONAL
INTERNVENTION, INDIAN FAMILIES
STILL FACE CHALLENGES IN THE PUBLIC
CHILD WELFARE SYSTEM, AND
RELIGIOUS EXEMPTIONS TO
NONDISCRIMINATION NORMS WOULD
JEOPARDIZE WHAT PROGRESS HAS BEEN
MADE IN THIS AREA. ................................... 15

CONCLUSION ........................................................... 18
APPENDIX—LIST OF AMICI ................................... 1a

ii
TABLE OF AUTHORITIES
Page(s)
FEDERAL STATUTES
25 U.S.C. §§ 1901-1963 ................................................ 4
25 U.S.C. § 1901(4) .............................................. 10, 15
25 U.S.C. § 1901(5) .................................................... 17
25 U.S.C. § 1915......................................................... 16
25 U.S.C. § 1915(b) .................................................... 16
Treaty between the United States of
America and the Chippewa Indians
of Saginaw, Swan Creek, and Black
River, Michigan, proclaimed Aug. 16,
1866, 14 Stat. 657 ................................................... 6
LEGISLATIVE MATERIALS
Indian Child Welfare Program:
Hearings before the Subcomm. on
Indian Affairs of the S. Comm. on
Interior and Insular Affairs, 93rd
Cong. 25 (1974) ....................................................... 5
S. Rep. No. 95-597 (1977) ........................................ 6, 9
OTHER AUTHORITIES
American Indian Policy Review
Commission, Final Report (May
1977)........................................................................ 6

iii
TABLE OF AUTHORITIES
(continued)

Page(s)

Barbara Ann Atwood, Children, Tribes,
and States (2010) .................................................. 15
Laura Briggs, Taking Children: A
History of American Terror (2020) ....................... 12
Raymond Cross, American Indian
Education: The Terror of History and
the Nation’s Debt to the Indian
Peoples, 21 U. Ark. Little Rock L.
Rev. 941 (1999) ........................................... 4, 5, 6, 7
Matthew L.M. Fletcher & Wenona T.
Singel, Indian Children and the
Federal-Tribal Trust Relationship
95 Neb. L. Rev. 885 (2017) ........................... passim
Jan Hoffman, Who Can Adopt a Native
American Child? A Texas Couple vs.
573 Tribes, New York Times (June 5,
2019)...................................................................... 17
Margaret D. Jacobs, A Generation
Removed: The Fostering and
Adoption of Indigenous Children in
the Postwar World (2014) ............................. passim

iv
TABLE OF AUTHORITIES
(continued)

Page(s)

National Council of Juvenile & Family
Court Judges, Disproportionality
Rates for Children of Color in Foster
Care (Fiscal Year 2015) (Sept. 2017),
https://www.ncjfcj.org/sites/default/
files/NCJFCJ-DisproportionalityTAB-2015_0.pdf .................................................... 16
The National Native American Boarding
School Healing Coalition, American
Indian Boarding Schools by State,
https://boardingschoolhealing.org/education/resources/ ................................................... 8
Mary Annette Pember, Death by
Civilization, The Atlantic (March 8,
2019)........................................................................ 6
St. Labre Indian School, Frequently
Asked Questions,
https://www.stlabre.org/ways-to-givecopy/faq/ .................................................................. 8

1
INTEREST OF AMICI CURIAE 1
Amici are law professors whose scholarship and
clinical practice focus on the subject matter areas of
Indian law, tribal powers, and federal- and state-court
jurisdiction. 2 These areas of focus are directly implicated by any discussion of the enforceability of nondiscrimination standards applicable to the public child
welfare system. Amici have an interest in ensuring
that cases concerning these issues are decided consistently with foundational principles in this area of law,
and the express intent of Congress in protecting Indian families from continued discrimination through
the Indian Child Welfare Act. Amici submit this brief
to provide the Court important background regarding
the history of discrimination against Indian children
and families, which shows the necessity of nondiscrimination norms in this area.

Counsel for all parties have consented to the filing of this brief.
Pursuant to Supreme Court Rule 37.6, amici affirm that no counsel for a party authored this brief in whole or in part, and that no
person or entity other than amicus, its members, and its counsel
made a monetary contribution intended to fund the preparation
or submission of this brief.
1

2

A complete list of amici appears in an appendix to this brief.

2
INTRODUCTION AND SUMMARY OF
ARGUMENT
Amici write to explain how the long and shameful
history of treatment of Indian children by the child
welfare system in the United States demonstrates the
dangers of and substantial harms inflicted by
discrimination in this setting, including in particular
discrimination based on the religious beliefs of
government employees or agents.
For over a century prior to the late 1970s, state
child welfare agencies, working hand in hand with
white religious institutions, forcibly removed Indian
children from their families, homes and cultures, and
placed them with white, Christian foster or adoptive
homes. Historians estimate that that as many as 25%
to 30% of all Indian children nationwide were
involuntarily taken from their communities and
placed with white families, based in part on the
conviction that a “Christian” upbringing would be
better for the children than other environments. State
and religious agencies targeted Indian children for
removal based on specious assumptions about the
fitness of Indian families, and relied on those same
biased assumptions to exclude from consideration
Indian homes willing to serve as foster or adoptive
families, including the children’s own extended family
members.
The devastating impact of these discriminatory
child welfare policies on Indian children, Indian
families, and Indian tribes, and the stain they have
left on the entire child welfare system in the United
States has been documented by historians and
recognized by Congress. Only legislative action,
enactment of the Indian Child Welfare Act of 1978, put
an end to and sought to remedy that disgraceful

3
episode of American history in which cultural and
religious prejudice prevailed and preferential
treatment of certain state-sanctioned cultures and
religions over others was permitted to dictate child
welfare decisions. Amici respectfully submit that the
lessons learned from this tragic experience should
inform the Court’s consideration of Petitioners’
argument that they should be permitted, as agents of
the state, to opt out of local anti-discrimination
policies and exclude prospective foster families who do
not meet their religious standards.
ARGUMENT
I.

THE HISTORY OF DISCRIMINATION,
INCLUDING
RELIGIOUS
DISCRIMINATION, IN THE REMOVAL
AND
PLACEMENT
OF
INDIAN
CHILDREN DEMONSTRATES THE NEED
FOR NON-DISCRIMINATION RULES TO
PROTECT CHILDREN AND FAMILIES.

From this nation’s earliest days, government and
religious institutions, often working in tandem,
targeted Indian children for assimilation into white
Christian culture. State and church worked together
to place Indian children, against the will of the
children and their parents, in military and religious
schools. Later, and throughout the century preceding
the late 1970’s, states forcibly removed Indian
children from their families and placed them with
white Christian families through private and publicly
arranged adoptions and foster care arrangements. The
system was blatant, state-sponsored discrimination:
Indian families—both immediate families, and those
extended family members willing to serve as
placements—were considered unfit by default to raise
children.

4
The harms inflicted by this state-sanctioned
discrimination have been well documented by
historians and fully recognized by the United States
Congress, leading to its passage of the Indian Child
Welfare Act (“ICWA”), 25 U.S.C. §§ 1901-1963, in
1978. Considered the “gold standard” in child welfare
policy, the law seeks to remedy more than a century of
disparate treatment of Indian children and families,
and to prevent further discriminatory removal of
Indian children from their homes. Indian Country’s
painful history, and Congress’s effort to halt and
reverse the injury through corrective legislation, make
clear that nondiscrimination norms are essential in
connection with child welfare, adoption, and foster
care. Petitioners’ effort to establish a constitutional
right to discriminate based on religious beliefs ignores
this tragic history and the lessons the United States
already has learned from it.
A.

Early Federal Policies Targeted Indian
Families for Assimilation and Religious
Conversion through Education.

Policies targeting Indian children for assimilation
and religious conversion originated as coercive efforts
in colonial America and the fledgling United States.
See Matthew L.M. Fletcher & Wenona T. Singel,
Indian Children and the Federal-Tribal Trust
Relationship 95 Neb. L. Rev. 885, 911-912 (2017)
(tracing the history of colonial mandates of religious
conversion through post-war treaty proposals to place
missionaries among Indian tribes and to include
education provisions in Indian treaties). As the new
United States government gained footing, tribes
“legally devolved from . . . semi-independent
sovereigns to a governmental wardship status.”
Raymond Cross, American Indian Education: The

5
Terror of History and the Nation’s Debt to the Indian
Peoples, 21 U. Ark. Little Rock L. Rev. 941, 952 (1999).
Federal policy toward Indian tribes as federal wards
sought to “break up the extended family,” “to
detribalize and assimilate Indian populations,” to ban
Indian religions, to punish children “for speaking their
mother tongue,” and generally “to reform Indian
family and community life.” Indian Child Welfare
Program: Hearings before the Subcomm. on Indian
Affairs of the S. Comm. on Interior and Insular Affairs,
93rd Cong. 25 (1974) (statement of William Byler,
Executive Director, Association on American Indian
Affairs) (hereafter “1974 Hearings”). By the 1880s, the
compulsory education of Indian children and their
mandatory conversion to Christianity became the
primary means of accomplishing these objectives. See
Fletcher & Singel, Indian Children and the FederalTribal Trust Relationship, 95 Neb. L. Rev. at 940.
Ultimately, “[r]eservation Indian life was deemed
so inherently destructive of the Indian children so as
to mandate their physical removal from its
debilitating influences.” Cross, American Indian
Education, 21 U. Ark. Little Rock L. Rev. at 944. “One
federal official suggested ‘tak[ing Indian children] in
their infancy and plac[ing] them in its fostering
schools; surrounding them with an atmosphere of
civilization, maturing them in all that is good, and
developing them into men and women instead of
allowing them to grow up as barbarians and savages.’”
Fletcher & Singel, Indian Children and the FederalTribal Trust Relationship, 95 Neb. L. Rev. at 942
(citation omitted).
These notions of “protecting” Indian children from
their own culture led to the creation of Indian boarding
schools to facilitate removal of Indian children from

6
their homes and families. S. Rep. No. 95-597, at 39
(1977) (excerpt from American Indian Policy Review
Commission, Final Report (May 1977)). The federal
government and church officials, often working
together, first coerced, and later forced, native families
to send their children to these schools, many of which
were funded by the federal government and “managed
by various Christian denominations.” Mary Annette
Pember, Death by Civilization, The Atlantic (March 8,
2019); Cross, American Indian Education, 21 U. Ark.
Little Rock L. Rev. at 957 (the federal government
“sought to delegate [the] responsibility [for running
Indian schools] to religious denominations”); see, e.g.,
Treaty between the United States of America and the
Chippewa Indians of Saginaw, Swan Creek, and Black
River, Michigan, proclaimed Aug. 16, 1866, 14 Stat.
657 (providing funding for the establishment of an
Indian school, and granting control of said school to
the Missionary Society of the Methodist Episcopal
Church). Clergy acting as teachers and administrators
at Indian boarding schools prohibited Indian children
“from speaking their native language,” and from
observing “Indian religions, or other aspects of the
culture that they might practice.” 1974 Hearings at
131 (comment of Sen. Abourezk). Indian children at
boarding schools were required to attend Christian
church services at least until the mid-1970s. See 1974
Hearings at 133 (testimony of Drs. Bergman and
Goldstein) (children at modern Indian boarding
schools are required to attend Christian church
services, regardless of their religious beliefs).
The removal of Indian children to boarding school
resulted directly in the placement of those children in
non-Indian, Christian families. Fletcher & Singel,
Indian Children and the Federal-Tribal Trust
Relationship, 95 Neb. L. Rev. at 943. By the practice

7
referred to as “outing,” Indian boarding schools began
detailing students “to serve as manual workers on
farms and in households.” Id. Captain Richard H.
Pratt, head of the Carlisle Indian School and author of
The Advantages of Mingling Indians with Whites
(1892), believed that “the system should be extended
until every Indian child was in a white home[.]” Id.
Compulsory education polices ultimately removed
entire generations of Indian children from their
families and communities and forced them into white,
Christian homes. But the government’s stated goals
were never achieved. The mandatory attendance at
boarding school and subsequent insertion of Indian
children into these households failed to assimilate, or
even to educate, most of the children targeted. Cross,
American Indian Education, 21 U. Ark. Little Rock L.
Rev. at 957-960. The practice instead caused a variety
of snowballing and dire consequences for Indian
families as it “removed children at a crucial time in
their upbringing,” when those children otherwise
would have learned “their cultures and languages”
and “the proper way to raise children within extended
family networks.” Margaret D. Jacobs, A Generation
Removed: The Fostering and Adoption of Indigenous
Children in the Postwar World at 13 (2014). Only after
government administrators began to conclude that
boarding schools were too expensive—and sought to
blame Indian families instead of their own mandatory
policies for the high numbers of Indian children in
those schools—did federal support necessary to
sustain the program gradually dwindle. 3 Jacobs, A
Generation Removed at 12.
Both government and private Indian boarding schools remain
in operation today, many of them Christian religious-based
3

8
B.

The Child Welfare System Allowed
State and Religious Entities to
Continue to Impose Discriminatory
Standards on Indian Families.

The practices of removing Indian children from
their homes and putting them in boarding schools also
had a self-reinforcing quality. Indian communities and
families that saw their children forcibly removed and
suffered the consequent social and economic
disruption were then characterized by state and
private agencies as unfit to raise children. Jacobs, A
Generation Removed at 19-20; 1974 Hearings at 25
(Byler prepared statement) (discussing economic,
educational, health, and housing disparities among
Indian families as consequences of long-established
federal policy, and noting that not all similarly
situated groups suffer from similarly high rates of
family separation). The discriminatory treatment of
Indian children and families was also exacerbated by
financial concerns especially after 1950. Indian
children in special need of care as a consequence of the
failed boarding school experiment were forced into
adoptive homes as a means of privatizing the cost of
raising them. Jacobs, A Generation Removed at 17, 19.
institutions. See The National Native American Boarding School
Healing Coalition, American Indian Boarding Schools by State,
https://boardingschoolhealing.org/education/resources/
(73
Indian schools remain open today, 15 continue boarding
students). Troublingly, vestiges of the historical association
between boarding schools and adoption of Indian children persist
in the minds of many — one such school has had to explicitly state
on its website in response to Frequently Asked Questions that it
does not make its students available for adoption. See, e.g., St.
Labre
Indian
School,
Frequently
Asked
Questions,
https://www.stlabre.org/ways-to-give-copy/faq/ (“Are the youth in
this facility available for adoption by non-Native families?”).

9
Concurrent federal policy incentivized relocation of
Indians to urban areas, and accordingly shifted
responsibility for many Indian children to states. Id.
at 8-9, 15. States resisted this charge and the
monetary burdens it imposed. Id. at 15. They came to
regard “the adoption of Indian children in state care
as the ultimate solution to their budgetary concerns.”
Id. at 17. States’ endorsement of this perceived
solution cannot be overstated: state governments
removed between 25% and 30% of all Indian children
nationwide from their families, placing about 90% of
those children in white foster or adoptive homes.
Fletcher & Singel, Indian Children and the FederalTribal Trust Relationship, 95 Neb. L. Rev. at 955; 1974
Hearings at 4 (Byler statement). To the extent
religious agencies made placements, Indian children
were placed entirely with members of that religion.
See Jacobs, A Generation Removed at 87 (the Church
of Jesus Christ of Latter Day Saints placed up to
50,000 Indian children with Mormon families).
As Congress later observed, state and private
agencies targeted Indian children for removal based
on discriminatory criteria echoing the assimilative
justifications of the boarding school era. Rarely were
Indian children removed for physical abuse, 1974
Hearings at 4 (Byler statement); rather Indian
families were often separated based on “temporary or
remedial” conditions, S. Rep. No. 95-597, at 11. Review
of the criteria and policies used to justify removal
reveals that many of these conditions were in fact
pretextual; Indian families continued to be targeted by
the child welfare system, as they were by compulsory
education policies, simply because they were Indian.
For example, California social workers placed an
Indian child in a pre-adoptive home without any
evidence that the child’s mother was unfit, based only

10
on the social workers’ “belief that an Indian
reservation is an unsuitable environment for a child.”
1974 Hearings at 19-20 (Byler prepared statement).
Similarly, “[a] survey of a North Dakota tribe
indicated that, of all the children that were removed
from that tribe, only 1 percent were removed for
physical abuse.” 1974 Hearings at 4 (Byler statement).
Removal of the other 99 percent was justified “on the
basis of such vague standards as deprivation, neglect,
taken because their homes were thought to be too
poverty stricken to support the children.” Id.
Likewise, paternalistic judgments about family
structure and the validity of traditional Indian
practices led adoption proponents to target the
children of unwed Indian mothers. The Bureau of
Indian Affairs and state social workers sought to
convince unwed Indian mothers to give up their
children for adoption even where there was no need
because illegitimacy bore no stigma within the Indian
community and the mother or her family were fully
prepared to accept and care for the child. Jacobs, A
Generation Removed at 24-25. Those targeted by the
government included mothers wed by traditional
custom rather than under state laws. Id. at 24.
As in the boarding school era, these discriminatory
policies resulted in the removal of thousands of
children from their homes to non-Indian foster homes
and adoption placements. 25 U.S.C. § 1901(4)
(Congressional findings). Through these practices,
Indian children became greatly overrepresented in the
child welfare system compared to non-Indian
children. 4 Furthermore, because a financial incentive
“In Minnesota, Indian children are placed in foster or in
adoptive homes at [a] rate of five times . . . greater than non4

11
existed for foster care, but such payments ceased after
adoption, some Indian children cycled through
multiple foster homes but were not adopted. 1974
Hearings at 24 (Byler prepared statement) (describing
how federally-subsidized foster care programs may
encourage some non-Indian families to supplement
their meager farm income with foster care payments
and to obtain extra hands for farm work, noting that
such payments cease after adoption, and highlighting
a disparity between the number of Indian children in
foster care versus the number of Indian children in
adoptive homes); 1974 Hearings at 45 (statement of
Dr. Joseph Westermeyer, Department of Psychiatry,
University of Minnesota) (describing Indian patients
who had been placed out of their birth homes: “the
majority of these in foster homes . . . and a minority of
them, only a few, in adoptive homes. . . . foster home
placement was never, in all of these instances,
restricted to one home”).
Indian families were also discriminated against by
virtue of the removal and placement of Indian children
without due process. 1974 Hearings at 5 (Byler
statement). “Few Indian parents, few Indian children
[were] represented by counsel in custody cases.
Removal of these children [was] so often the most
Indian children. In South Dakota, 40 percent of all adoptions
made by the State's department of public welfare since 1968 are
of Indian children, yet Indian children make up only 7 percent of
the total population. The number of South Dakota Indian
children living in foster homes is per capita nearly [16 times]
greater than the rate of non-Indians. In the State of Washington,
the Indian adoption rate is 19 times . . . greater and the foster
care rate is [10 times] greater than it is for non-Indian children.
In Wisconsin, the risk of Indian children being separated from
their parents is nearly [16 times] greater than it is for non-Indian
children.” 1974 Hearings at 3 (Byler statement).

12
casual kind of operation, with the Indian parents often
not having any idea of what kind of legal recourse or
administrative recourse is available to them.” Id. NonIndian “adoptive parents” also took children with “no
pretense of adoption, no color of law.” Laura Briggs,
Taking Children: A History of American Terror at 70
(2020) (citation omitted). One child “was taken by two
Wisconsin women with the collusion of a local
missionary after her Oglala Sioux mother was tricked
into signing a form purportedly granting them
permission to take the child on a short visit but, in
fact, agreeing to her adoption.” 1974 Hearings at 22
(Byler prepared statement) (describing the case as
“simple abduction[]”). As the child’s mother sought her
return, these “adoptive parents” cited the importance
of a religious (i.e., Christian) upbringing in support of
their claim to retain the Indian child against the
family’s will. Briggs, Taking Children at 70 (“We have
not taken Benita from you; you gave her physical
birth, which we could not give, and we can give her
opportunities which you could not give—so she
belongs to both of us. But far more, she belongs to the
Lord.”).
The same discriminatory standards used to justify
removal of Indian children from their homes “also
applied against Indian families in their attempts to
obtain Indian foster or adoptive children.” 1974
Hearings at 5 (Byler statement). Standards used to
justify placement in non-Indian homes were “based
upon middle-class values; the amount of floor space
available in the home, plumbing, income levels. Most
of the Indian families [could not] meet these standards
and the only people that [could] meet them [were] nonIndians.” Id. State courts making placement decisions
often failed to consider any information about
extended family and community members available to

13
support or care for the child. 1974 Hearings at 63
(prepared statement of Drs. Carl Mindell and Alan
Gurwitt, Child Psychiatrists). In at least one instance,
social workers physically attempted to remove an
Indian child from an Indian family that sought to care
for the child after his mother’s death. 1974 Hearings
at 51-53 (testimony of Mrs. Alex Fournier). Although
the state delayed removal, without explanation, for
more than a year, social workers made no attempt at
any point to determine the fitness of the home—
neither to determine whether the home was a suitable
placement, nor to assess whether removal was
appropriate. Id. at 53.
Not only were extended family placements for
individual Indian children excluded as a natural
consequence of the imposition of discriminatory
norms, but state standards for foster care licensure
reflected similar exclusion. Id. at 63 (prepared
statement of Drs. Mindell and Gurwitt) (“The
standards used in making the placement reflect the
majority culture's criteria for suitable placement . . .
and do not take into sufficient account what may be
modal within the child's socio-cultural milieu. Thus
Indian families are discriminated against as potential
foster families.”). Only two Indian foster homes
existed in Minnesota in the late 1960s and early
1970s. 1974 Hearings at 46 (Westermeyer testimony);
1974 Hearings at 50 (Westermeyer testimony) (noting
economic and housing criteria “that operates against
adoption by Indian parents, and for adoption by white
parents”); 1974 Hearings at 33 (Legislative
Recommendations of the Association on American
Indian Affairs) (finding that “relatively few Indian
homes are licensed by the states to accept foster-care
placements”). Despite the lack of licensed homes, other
evidence demonstrates that Indian families were

14
willing and able to serve as placements. 1974 Hearings
at 31 (Byler prepared statement) (multiple tribes,
when made aware of and given access to some means
to combat the problem, were able to end offreservation foster and adoptive placements almost
entirely).
Contributing to the exclusion of Indian families
from consideration as placements, religious groups
created entire adoption and “education” programs of
their own specifically to facilitate fostering and
adoption of Indian children by member families.
Jacobs, A Generation Removed at 49. Lutheran Social
Services of South Dakota established a program for
the adoption of Indian children in 1965; over the
ensuing eleven years the program “placed 305 Indian
children in 240 white families.” Id. The Church of
Jesus Christ of Latter Day Saints “placed up to fifty
thousand American Indian children with Mormon
foster families for nine months of each year. . . from
1947 to 2000.” Id. at 87. Although the program
ostensibly served “educational purposes,” it also
limited contact between Indian children and their
families, actively discouraging family visits, and
prohibiting children from returning home or otherwise
leaving their foster families “for more than a few hours
and definitely not overnight.” Id. The program also led
to the unauthorized removal of Navajo children. Id. at
87, 120.

15
III.

DESPITE
CONGRESSIONAL
INTERNVENTION, INDIAN FAMILIES
STILL FACE CHALLENGES IN THE
PUBLIC CHILD WELFARE SYSTEM, AND
RELIGIOUS
EXEMPTIONS
TO
NONDISCRIMINATION NORMS WOULD
JEOPARDIZE WHAT PROGRESS HAS
BEEN MADE IN THIS AREA.

Ultimately, as Congress noted, “an alarmingly high
percentage of Indian families [we]re broken up by the
removal, often unwarranted, of their children from
them by nontribal public and private agencies and an
alarmingly high percentage of such children [we]re
placed in non-Indian foster and adoptive homes and
institutions.” See 25 U.S.C. § 1901(4) (Congressional
findings). These “efforts to make Indian children white
. . . destroy[ed] them. [Attempts] to remove Indian
children from communities of poverty . . . help[ed] to
create the very conditions of poverty. [Removal of]
children from the home or disrupt[ion] of family life . .
. impede[d] the ability of the child to grow, to learn, for
himself, or herself, to become a good and responsible
parent later.” 1974 Hearings at 6-7 (Byler statement).
These harmful consequences of the nation’s
discriminatory child welfare policies, often based on
religious preference for the white, Christian
upbringing of all children, spurred Congress to enact
the Indian Child Welfare Act in 1978. See 25 U.S.C. §
1901(4) (Congressional findings). Those groups most
involved with the removal of Indian children to nonIndian homes, including religious groups, actively
opposed the legislation. Jacobs, A Generation Removed
at 149.
ICWA is, at its core, remedial legislation ensuring
that Indian children are not deprived of their cultural

16
and familial ties based on a discriminatory assessment
of subjective family values. See Barbara Ann Atwood,
Children, Tribes, and States, 155 (2010). The
legislation protects both Indian children and parental
rights, but also Indian foster families and extended
family placements, mandating that all 5 agencies do
diligent searches to ensure Indian children in foster
care are placed first with their own extended family if
at all possible. 25 U.S.C. § 1915(b). Where that is not
an option, the state may place an Indian child with a
foster family licensed or approved by the child’s tribe.
Id. If neither option is available, the child may be
placed with an Indian family licensed by a non-Indian
agency, such as a state agency. Id. And, just as
importantly, states must recruit foster families to
ensure they are able to meet the statute’s placement
preferences.
Compliance with the statute remains an uphill
battle, and Indian children continue today to be
targeted for removal from their families and Indian
community. Indian children remain overrepresented
in foster care at rates vastly disproportionate to nonIndian children in many states. See National Council
of Juvenile & Family Court Judges, Disproportionality
Rates for Children of Color in Foster Care (Fiscal Year
2015) 5-6 (Sept. 2017), https://www.ncjfcj.org/sites/
default/files/NCJFCJ-Disproportionality-TAB-2015
_0.pdf. Despite Congress’s recognition that the
breakup of Indian families contributed to lasting social
problems among Indian people, and that the public
child welfare system had failed to recognize “the
All agencies must ensure they follow the placement preferences
set forth in 25 U.S.C. § 1915. This responsibility may not be
shirked by some agencies and delegated to others. Contra Pet’r’s
Br. 8, 28.
5

17
cultural and social standards prevailing in Indian
communities and families,” the fitness of Indian
homes continues to be questioned based on conditions
that are the consequence of state-sanctioned
discrimination. 25 U.S.C. § 1901(5); see, e.g., Jan
Hoffman, Who Can Adopt a Native American Child? A
Texas Couple vs. 573 Tribes, New York Times (June 5,
2019) (describing testimony in a matter involving the
placement of a Navajo child with a non-Indian family
over the objection of the child’s relatives: “He had a few
concerns. He was thinking of the baby ‘not as an infant
living in a room with a great-aunt but maybe as an
adolescent in smaller, confined homes,’ he said. ‘I don’t
know what that looks like — if she needs space, if she
needs privacy. I’m a little bit concerned with the
limited financial resources possibly to care for this
child, should an emergency come up.’”).
Although a long road remains in front of Indian
children and families seeking to escape the legacy of
family separation and ensure their fair treatment, the
remedial non-discrimination protections afforded by
ICWA have been critical in moving the public child
welfare system toward that goal. Accepting
Petitioners’
argument
and
establishing
a
constitutional right on the part of governmentcontracted child welfare providers to opt out of nondiscrimination requirements based on religious
objections threatens to undermine hard-won progress
in this area.

18
CONCLUSION
The history of forced placement of Indian children
in white, Christian households based on cultural and
religious beliefs illustrates the critical need for
nondiscrimination protections in the child welfare
system and the risk of harm to both children and
potential foster and adoptive families in allowing
religious
exemptions
to
those
protections.
Paternalistic,
cultural
and
religious-based
predeterminations of fitness based on criteria
unrelated to the needs of the child were, and continue
to be, weaponized against Indian families to justify the
removal of Indian children, or the selection of nonIndian homes for placement. As discussed above,
Indian families suffered the wholesale removal of their
children at the hands of state and religious
institutions seeking to assimilate, “civilize,” and
convert Indian people. That discrimination has
resulted in substantial harm that Indian families
continue to suffer from today, including the loss of
connection to their own languages and cultures,
difficulty in developing essential parenting skills, and
lasting multi-generational poverty. Congress intended
ICWA to be a comprehensive solution to the problems
facing Indian children and families in the child welfare
system, and the statute has helped remedy the
situation even as the harms caused by a century of
discrimination have proved intractable.
This shameful history must inform any decision
about whether to permit a child welfare system to engage in religious discrimination, much less to prohibit
the system from outlawing such discrimination. Toleration of policies that deem some families less worthy
than others–whether based on culture, religion, or sex-

19
ual orientation–injures everyone involved: the children in need of care; foster and adoptive families
standing ready to open their home to nurture a child
in need of placement; and society as a whole, which is
sent a loud and clear message that the disfavored foster family is of less value in the eyes of the government.
Respectfully submitted,

August 20, 2020

JEROME C. ROTH
Counsel of Record
APRIL YOUPEE-ROLL
MUNGER, TOLLES & OLSON LLP
560 Mission Street, 27th Floor
San Francisco, CA 94105
(415) 512-4010
Jerome.Roth@mto.com

APPENDIX

1a
APPENDIX—LIST OF AMICI
Robert Anderson, Professor of Law Emeritus,
University of Washington School of Law and Oneida
Indian Nation Visiting Professor of Law, Harvard
Law School
Matthew L. M. Fletcher, Professor of Law and
Director, Indigenous Law & Policy Center, Michigan
State University College of Law
Lorie Graham, Professor of Law and Co-Director,
International Law Concentration, Suffolk University
Law School
Kathryn E. Fort, Adjunct Professor and Director,
Indian Law Clinic, Michigan State University College
of Law
Angelique EagleWoman, Co-Director, Indian Law
Program, Mitchell Hamline School of Law
Sarah Krakoff, Moses Lasky Professor of Law,
University of Colorado Law School
Monte Mills, Associate Professor and Co-Director,
Margery Hunter Brown Indian Law Clinic, Alexander
Blewett III School of Law at the University of Montana

